         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department's Configuration
Management of Non-Financial
Systems




OAS-M-12-02                          February 2012
                                  Department of Energy
                                     Washington, DC 20585

                                        February 23, 2012

MEMORANDUM FOR THE CHIEF INFORMATION OFFICER,
               CHIEF INFORMATION OFFICER, NATIONAL NUCLEAR
                  SECURITY ADMINISTRATION, AND
               DIRECTOR, OFFICE OF SCIENCE



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department's Configuration
                         Management of Non-Financial Systems"
BACKGROUND

The Department of Energy utilizes many types of information technology (IT) systems to
support its various missions related to environmental cleanup, national security, energy and
scientific research. Protecting these systems has become increasingly challenging as the
frequency and sophistication of cyber attacks continues to rise. A key component of helping to
ensure an adequate information security posture is the implementation of an effective
configuration management program. Configuration management helps to protect the
confidentiality, integrity and availability of IT resources through controls over the processes for
initializing, changing and monitoring information systems. For instance, active management and
testing of configurations is essential for identifying and remediating vulnerabilities in systems
and applications. Furthermore, effective use of change controls is integral for managing updates
to system configurations and should include proper approvals, testing and validation, and
evaluation of security implications of changes.
Prior Office of Inspector General (OIG) reports identified systemic issues with the Department's
cyber security and configuration management programs. For instance, our annual evaluation of
The Department's Unclassified Cyber Security Program identified weaknesses related to
configuration management over financial systems for each of the past six years. In light of the
need to ensure effective security practices over the Department's information systems and the
challenges noted in prior OIG reports, we initiated this audit to determine whether the
Department implemented an effective configuration management process over non-financial
systems. This review supplements our annual financial statement audit and Federal Information
Security Management Act (FISMA) evaluation, and focused on non-financial systems and certain
sites and observations not included in our other reviews.

CONCLUSIONS AND OBSERVATIONS

We found that the Department had not implemented sufficient controls over its configuration
management processes for non-financial systems. The issues we identified were similar to what
we observed with financial systems in our most recent evaluation report of The Department's
Unclassified Cyber Security Program - 2011 (DOE/IG-0856, October 2011). Security patches
designed to mitigate system vulnerabilities had not been applied in a timely manner for desktops,
applications and servers. In addition, organizations and sites reviewed had not always followed
effective procedures to ensure that changes to systems and applications were properly tested and
approved prior to implementation.

                                    Vulnerability Management

Although the organizations and sites reviewed had policies and procedures for conducting
periodic vulnerability scans of information systems, we found internal vulnerabilities at each
location that negatively impacted the security of desktops, non-financial applications, and at two
sites, system servers. In addition, we identified external vulnerabilities at one location. External
assessments are conducted from outside an organization's security perimeter and offer the ability
to view the environment's security posture as it appears from outside the entity with the goal of
revealing vulnerabilities that could be exploited by an external attacker. Internal vulnerability
assessments assume the identity of a trusted insider or an attacker who has penetrated perimeter
defenses. During our internal vulnerability testing, we utilized both authenticated and
unauthenticated scanning. Authenticated scanning uses login names and passwords to simulate a
user being on the system, while unauthenticated scanning does not use login credentials and
typically identifies basic internal network setting vulnerabilities. In particular:

   •   Scans of desktop machines that could access selected non-financial systems found that
       414 of 714 (58 percent) contained vulnerabilities designated as medium or high risk in
       the National Vulnerability Database, which is sponsored by the Department of Homeland
       Security. For example, at one Office of Science (Science) site, we found that 56 of 131
       (43 percent) desktops contained vulnerabilities. Similarly, 209 of 319 (66 percent)
       desktops tested at a National Nuclear Security Administration (NNSA) site and all 38
       desktops reviewed for one Headquarters organization contained vulnerabilities. We
       determined that numerous desktops were running programs that were missing security
       patches or updates that were more than 3 months old. In some instances, patches for
       identified vulnerabilities had been released by the vendor more than one year prior to our
       testing. Two organizations and three sites reviewed were also utilizing unpatched
       versions of office automation software that could have presented the risk that an attacker
       would be able to execute malicious code or disrupt system operations;

   •   We identified 14 vulnerabilities at 2 organizations and 3 sites that affected various system
       applications, including those used to support functions such as procurement and security.
       Eight of the vulnerabilities were high risk, including at least one that could have been
       exploited by an attacker to compromise key internal systems and sensitive data. The
       remaining six weaknesses were medium risk and included vulnerable input validation
       techniques that could be used by an attacker to obtain unauthorized access to data within
       the database. Other vulnerabilities identified during our testing of the applications
       included problems with data protection, access controls, authorization management and


                                                 2
       data sanitization – all of which could have allowed a malicious attacker to obtain user
       credentials, steal sensitive information, or potentially execute malicious programs on the
       Department's systems;

   •   At 2 sites, we identified 13 system servers that contained 5 different types of high risk
       vulnerabilities. Specifically, servers containing potentially sensitive information were
       missing security patches for various operating systems even though the patches had been
       released by the vendor more than 30 days prior to our testing. In some instances, patches
       that had been released by the vendor over two years prior to our testing had not been
       applied. Absent remediation of the identified weaknesses, the sites were at risk for
       remote code execution by attackers that could disrupt normal business operations or have
       negative impacts on system and data reliability; and,

   •   In addition to the vulnerabilities identified during our internal testing, we also found
       weaknesses at one site during our external vulnerability assessment. Specifically, we
       determined that a vulnerability existed on a system in which a remote server could allow
       anonymous access to the system. This issue could have resulted in the disclosure of
       information that an attacker could find useful to conduct future exploits. Although
       officials stated that they had accepted the risk posed by the vulnerability, we found that
       the acceptance process was informal, lacked a detailed analysis and occurred only after
       we brought the vulnerability to management's attention during our testing.

The weaknesses described above occurred because procedures were not adequate for identifying
and remediating vulnerabilities in a timely manner. For instance, a policy at one site stated that
identified high and medium risk vulnerabilities should be remediated within seven days of
identification. However, we noted that many of the weaknesses identified were more than three
months old because the site's vulnerability scanning process did not include authenticated scans –
a key testing method used to identify weaknesses. As such, many of the weaknesses we
identified went undetected by the site during its testing. Notably, subsequent to our testing,
officials acknowledged that authenticated scanning would be beneficial and commented that they
would seek to implement it in the future.
At another site, procedures permitted various amounts of time to pass before vulnerabilities were
required to be remediated. Specifically, a scoring process was used to assess the risk of system
and vulnerability attributes such as number of missing patches, severity of the patches and the
time elapsed since the patches were required. Once the system score reached a certain threshold,
the system administrator had seven days to remediate the vulnerability or the system would be
blocked from accessing certain network services. While the site stated that it relies on a defense-
in-depth approach to cyber security, we found that the procedures described above allowed
known vulnerabilities to remain uncorrected on systems for an extended period even when a
patch was available.

Without improvements to its vulnerability management program, the Department's desktops,
non-financial applications and servers continue to be at risk from internal and external threats.
As noted, many of the vulnerabilities we identified created the potential for an attacker to gain
unauthorized access to the Department's systems and information.

                                                 3
                                    System Change Controls

Changes to non-financial information systems and applications at six organizations and sites
reviewed were not always properly approved, tested or evaluated for security risks prior to their
implementation. As noted by the National Institute of Standards and Technology (NIST), an
effective change control process is necessary to ensure that only authorized changes are made to
systems and that the integrity and security of the system remains intact. In particular, we found:

   •   The Department had not documented approvals for each configuration change made to
       the systems reviewed. Specifically, although each of the organizations and sites reviewed
       had established a process for making changes to information systems, we found that 44 of
       197 (22 percent) change requests reviewed did not have documented authorizations
       indicating that the change had been approved in advance of being initiated. For instance,
       all 44 change requests reviewed within the Office of the Chief Information Officer
       (OCIO) lacked documented approvals. Although officials informed us that the proposed
       changes were reviewed by the OCIO Change Advisory Board, there was no evidence of
       its decision to accept or deny change requests;

   •   The Department had not always determined the potential security risks and impacts of
       system changes prior to actually implementing them. While NIST guidance stressed the
       need to approve changes to a system with consideration for security implications, we
       found that the majority of the changes reviewed either did not have a security impact
       analysis or the analysis was not complete. For example, at Brookhaven National
       Laboratory (BNL), all 34 changes reviewed were missing documented security impact
       analyses. In addition, 10 of 44 change requests within OCIO were approved for
       implementation even though there was no data or inadequate data provided in the "Risk
       Impact/Assessment" field of the change control form; and,

   •   Forty-three of 197 (22 percent) changes evaluated did not have test plans and/or test
       results that analyzed potential functional and security impacts. For example, OCIO had
       insufficient or no test plans for half of the system changes reviewed. Also, the Los
       Alamos National Laboratory (LANL) was unable to provide test plans for 10 of the 12
       system changes reviewed. In responding to our report, NNSA officials commented that
       the LANL changes reviewed did not require test plans because the changes were
       considered "Fast Track" work tickets. However, no information was provided to support
       this process during our test work, and we found that the system for which the changes
       occurred did not have a formal change control process in place to describe any such
       procedures.

The change control weaknesses we identified occurred because procedures were not always
adequate for addressing approval, testing or evaluation for security risk prior to implementation.
For instance, we noted that while the change control procedures at certain Department
organizations addressed the development and execution of testing plans, others did not. In
particular, the Configuration Management Plan for Science at Headquarters did not include
details or requirements for testing system changes prior to implementation. In addition, BNL
officials stated that formalized test plans for system updates and patches were not documented
                                                 4
because the system changes were not complex and were of a routine nature. Furthermore, while
certain organizations and sites had established change control guidance, the procedures did not
always address the need for a formal security impact analysis. For example, the Office of the
Chief Financial Officer's management plan stated that changes were evaluated based on overall
impact. While we noted that the impact assessment did address functionality, cost and schedule,
it did not include a security analysis. In addition, change control procedures at one organization
and one site required a security analysis; however, in many cases, there was no evidence that the
analysis was completed even though the changes were approved.

Failure to properly test changes prior to employing them in business or other support systems
could have a significant impact on system security, data reliability and system operation. In
addition, assessing the potential security impact of system changes is essential to maintaining the
security posture and minimizing the risk of a security incident adversely affecting the system.

RECOMMENDATION

As part of our evaluation of The Department's Unclassified Cyber Security Program – 2011,
which focused primarily on financial systems, we provided a recommendation to develop and
implement, as needed, procedures and processes to adequately secure systems and applications.
We believe this prior recommendation, once fully implemented, will also help address the
adequacy of vulnerability management and change control procedures and processes relating to
non-financial systems.

However, during the course of this audit, we identified new configuration management
weaknesses that increase the risk of compromise of systems and applications that we reviewed.
Detailed information regarding these weaknesses was provided to management at each location
where vulnerabilities were identified. We acknowledge that many of the weaknesses we
identified may be corrected by the Department if it fully implements the recommendations
contained in the above report. Nevertheless, to ensure that the vulnerabilities identified during
this review are corrected in a timely manner, we recommend that the Department and NNSA
Chief Information Officers work with organizations and sites, as necessary, to correct the
specific weaknesses identified in this report.

MANAGEMENT REACTION AND AUDITOR COMMENTS

Department management concurred with the report's recommended action and stated that the
issues identified should be corrected during the implementation of planned corrective actions to
address our report on The Department's Unclassified Cyber Security Program – 2011. In separate
comments, NNSA management concurred with the report's recommended action but expressed
concern that we did not accurately report that the vulnerabilities identified were found using
elevated access privileges. We acknowledge that we were provided with user names and
passwords for our internal system work, which was meant to simulate an authenticated system
user. As such, the internal vulnerabilities we reported could potentially be exploited by individuals
with authenticated credentials. The external vulnerabilities, however, were discovered without the


                                                 5
benefit of elevated privileges and could have been exploited by any external user. Management's
comments can be found in Attachment 3.
Attachments

cc:   Deputy Secretary
      Associate Deputy Secretary
      Under Secretary for Nuclear Security
      Chief Health, Safety and Security Officer
      Chief of Staff




                                                  6
                                                                                     Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

To determine whether the Department of Energy (Department) implemented an effective
configuration management process over non-financial systems.

SCOPE

The audit was performed between November 2010 and February 2012 at Department
Headquarters in Washington, DC and Germantown, Maryland; and National Nuclear Security
Administration (NNSA) and Under Secretary for Science locations. The audit included internal
and external vulnerability scanning conducted by KPMG, LLC on behalf of the Office of
Inspector General. Systems we selected for review were unclassified, non-financial systems,
categorized as moderate according to the Federal Information Processing Standards, and a
major application or general support system. We conducted external testing of networks and
systems as an outsider without any elevated privileges. We conducted internal system scanning
as an authenticated user, that is a user with a valid user name and password, and reported on
vulnerabilities that could be exploited by both an insider and a remote attacker. In addition, our
work did not include a determination of whether vulnerabilities found were actually exploited
and used to circumvent existing controls.

METHODOLOGY

To accomplish our objective, we:

   •   Reviewed Federal laws and regulations pertaining to information and cyber security such
       as the Federal Information Security Management Act of 2002;

   •   Reviewed applicable standards and guidance issued by the Office of Management and
       Budget and the National Institute of Standards and Technology (NIST), such as NIST
       Special Publication 800-53, Recommended Security Controls for Federal Information
       Systems, and the Consensus Audit Guidelines;

   •   Obtained and analyzed documentation from Department organizations and sites
       pertaining to configuration management programs; and,

   •   Held discussions with officials from the Department and NNSA.

We conducted this audit in accordance with generally accepted Government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Accordingly, we assessed significant internal
controls and compliance with laws and regulations to the extent necessary to satisfy the audit
objective. In particular, we assessed the Department's implementation of the Government

                                                 7
                                                                         Attachment 1 (continued)

Performance and Results Act of 1993 and determined that while it did not have specific
performance measures for configuration management, it had established performance measures
to improve information technology policy and oversight. Because our review was limited, it
would not have necessarily disclosed all internal control deficiencies that may have existed at the
time of our audit. We did not solely rely on computer-processed data to satisfy our objective.
Computer-assisted audit tools were used to perform probes and scans of various networks and
drives. We validated the results of the scans by confirming the weaknesses disclosed with
responsible on-site personnel and performed other procedures to satisfy ourselves as to the
reliability and competence of the data produced by the tests. In addition, we confirmed the
validity of other data, when appropriate, by reviewing supporting source documents.

The Department and NNSA waived an exit conference.




                                                 8
                                                                                     Attachment 2


                                    RELATED REPORTS

Office of Inspector General Reports

   •   Audit Report on The Department's Unclassified Cyber Security Program – 2011
       (DOE/IG-0856, October 2011). Although positive steps had been taken to address
       previously identified cyber security weaknesses, additional action was needed to further
       strengthen the Department of Energy's (Department) unclassified cyber security program
       and help address threats to its information systems. Weaknesses were found in areas of
       access controls, vulnerability management, web application integrity, contingency
       planning, change control and cyber security training. These weaknesses occurred, in part,
       because the Department had not ensured that cyber security requirements included all
       necessary elements and were properly implemented; and program elements did not
       always utilize effective performance monitoring activities to ensure that appropriate
       security controls were in place.

   •   Audit Report on The Department's Unclassified Cyber Security Program – 2010
       (DOE/IG-0843, October 2010). Although corrective actions had been taken to resolve
       configuration management vulnerabilities identified in our Fiscal Year (FY) 2009
       evaluation, weaknesses in these areas persisted. Specifically, problems discovered during
       the review were attributed to inadequate configuration and vulnerability management
       controls. Performance testing revealed that all 17 locations reviewed had varying degrees
       of vulnerable applications on desktop and network systems and devices.

   •   Audit Report on The Department's Unclassified Cyber Security Program – 2009
       (DOE/IG-0828, October 2009). Weaknesses with configuration management remained at
       a number of Department sites. Specifically, weaknesses included software vulnerabilities
       and deficiencies in implementing common security configurations. Additionally,
       numerous sites had not implemented the Federal Desktop Core Configurations mandated
       by the Office of Management and Budget.

   •   Audit Report on The Department's Unclassified Cyber Security Program – 2008
       (DOE/IG-0801, September 2008). In regards to configuration management, this report
       identified weaknesses such as outdated or not appropriately patched software. If software
       with known vulnerabilities is not updated in a timely manner, the risk that the systems
       could be compromised increases. Also, a number of Department sites or organizations
       had not disabled unneeded computer services for their publicly accessible websites.
       These services increased the risk of malicious damage to these websites. Additionally,
       the report found that a financial system was not set to log account administrative activity,
       an essential control which permits management reviews. Furthermore, the report found
       that certain organizations and sites had not implemented protective measures requiring
       the adoption of standard desktop configurations and that security controls at another site
       on computers mostly assigned to foreign nationals from nonsensitive countries were not
       implemented.




                                                9
                                                                      Attachment 2 (continued)


Government Accountability Office Report

   •   Report on Cyber Security – Continued Attention Needed to Protect Our Nation's Critical
       Infrastructure and Federal Information Systems (GAO-11-463T, March 2011). The U.S.
       Government Accountability Office (GAO) continued to identify protecting the Federal
       government's information systems and the Nation's cyber critical infrastructure as a
       government-wide high risk area. Federal systems continue to be afflicted by persistent
       information security control weaknesses. For example, as part of its audit of the FY 2010
       Financial Statements for the U.S. Government, GAO determined that serious and
       widespread information security control deficiencies were a government-wide material
       weakness.




                                              10
                      Attachment 3


MANAGEMENT COMMENTS




        11
     Attachment 3 (continued)




12
     Attachment 3 (continued)




13
     Attachment 3 (continued)




14
                                                             IG Report No. OAS-M-12-02

                          CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope,
        or procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could
        have been included in the report to assist management in implementing
        corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's
        overall message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the
        issues discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you
        should we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
